<html>
<title> - DATA ACT IMPLEMENTATION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




                        DATA ACT IMPLEMENTATION

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         INFORMATION TECHNOLOGY

                                AND THE

                            SUBCOMMITTEE ON
                         GOVERNMENT OPERATIONS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 29, 2015

                               __________

                           Serial No. 114-45

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

96-955 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK, MULVANEY, South Carolina       BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
                 David Rapallo, Minority Staff Director
             Troy D. Stock, IT Subcommittee Staff Director
                          Katy Rother, Counsel
                    Sharon Casey, Deputy Chief Clerk
                 Subcommittee on Information Technology

                       WILL HURD, Texas, Chairman
BLAKE FARENTHOLD, Texas, Vice Chair  ROBIN L. KELLY, Illinois, Ranking 
MARK WALKER, North Carolina              Member
ROD BLUM, Iowa                       GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               TAMMY DUCKWORTH, Illinois
                                     TED LIEU, California

                 Subcommittee on Government Operations

                 MARK MEADOWS, North Carolina, Chairman
JIM JORDAN, Ohio                     GERALD E. CONNOLLY, Virginia, 
TIM WALBERG, Michigan, Vice Chair        Ranking Minority Member
TREY GOWDY, South Carolina           CAROLYN B. MALONEY, New York
THOMAS MASSIE, Kentucky              ELEANOR HOLMES NORTON, District of 
MICK MULVANEY, South Carolina            Columbia
KEN BUCK, Colorado                   WM. LACY CLAY, Missouri
EARL L. ``BUDDY'' CARTER, Georgia    STACEY E. PLASKETT, Virgin Islands
GLENN GROTHMAN, Wisconsin            STEPHEN F. LYNCH, Massachusetts








                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 29, 2015....................................     1

                               WITNESSES

The Hon. Gene L. Dodaro, Comptroller General of the United 
  States, U.S. Government Acountability Office, Accompanied by 
  Christopher Mihm, Managing Director of Stategic Issues, U.S. 
  Government Acountability Office
    Oral Statement...............................................     5
    Written Statement............................................     7
The Hon. David Mader, Controller, Office of Federal Financial 
  Management, Office of Management and Budget
    Oral Statement...............................................    36
Mr. David A. Lebryk, Fiscal Assistant Secretary, U.S. Department 
  of the Treasury
    Oral Statement...............................................    37
    Written Statement............................................    40
Mr. Robert A. Taylor, Deputy Assistant Inspector General for 
  Audit, U.S. Department of the Treasury
    Oral Statement...............................................    45
    Written Statement............................................    47

                                APPENDIX

2015-07-23 Powner-GAO to Hurd Meadows-Duckworth Post Hearing 
  Questions......................................................    64

 
                        DATA ACT IMPLEMENTATION

                              ----------                              


                        Wednesday, July 29, 2015

                  House of Representatives,
 Subcommittee on Information Technology Joint with 
              Subcommittee on Government Operations
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittees met, pursuant to call, at 1:05 p.m., in 
Room 2154, Rayburn House Office Building, Hon. Will Hurd 
[chairman of the Subcommittee on Information Technology] 
presiding.
    Present for Subcommittee on Information Technology: 
Representatives Hurd and Kelly.
    Present for Subcommittee on Government Operations: 
Representatives Meadows, Walberg, and Carter.
    Mr. Hurd. The Subcommittee on Information Technology and 
the Subcommittee on Government Operations will come to order. 
Without objection, the chair is authorized to declare a recess 
at any time.
    And we expect a vote series during the middle of this 
hearing, so we will try to get through as much testimony as we 
can, and then go for votes and come back for questioning. And 
as Ranking Members Kelly and Connolly arrive, we will have them 
offer their opening remarks.
    Good afternoon. Thanks for being here today. We have got a 
pretty crowded house.
    You know, this committee has investigated and explored 
issues at the forefront of this Nation's security with the data 
breach at OPM, the future of our commercial sector in drones, 
and the ever-evolving capacity for our technological innovators 
in as collegial and bipartisan a way as possible.
    Today's topic is no different, because while we may 
disagree on the size and scope of the Federal Government, we 
can all agree on the importance of understanding how government 
spends its taxpayer dollars.
    Enacted in May 2014, the Digital Accountability And 
Transparency Act, or DATA Act, is an important step in 
leveraging technological capabilities and know-how to make 
financial spending information accessible to the general 
public. If implemented properly, the DATA Act will allow anyone 
from public policy experts and journalists, to academics and 
average citizens, even Members of Congress, such as myself, to 
untangle the web of Federal agency receipts, appropriations, 
obligations, allotments to create a clear picture of government 
spending.
    This is an ambitious goal, to be sure, and we are here 
today to examine the progress that Treasury and the Office of 
Management and Budget have made in implementing the DATA Act. 
Whereas prior reform efforts have faltered, the work of the 
Executive Steering Committee and the fact that OMB and Treasury 
have met the statutory deadlines for issuing data standards and 
the consolidated receipt reporting pilot program give me hope 
that we are on the right track.
    While it is certainly important to meet statutory 
deadlines, agencies also have an obligation to make sure they 
are implementing bills correctly, not just on time. The use of 
standardized data has revolutionized entire industries and 
drives multi-million-dollar decisions and transactions in the 
private sector on a daily basis. Similarly, accurate data will 
help drive efficient decision-making at all levels of the 
government.
    I thank the witnesses for their testimony today, and I am 
looking forward to working with them to effectively implement 
the DATA Act, and realize the benefits of true transparency in 
Federal spending.
    Now it is an honor to recognize my friend from the great 
State of North Carolina, Mr. Meadows, the chairman of the 
Subcommittee on Government Operations for his opening 
statements.
    Mr. Meadows. Thank you, Mr. Chairman. And thank you for 
holding this hearing, for your leadership on this effort. Thank 
each of you for coming. Obviously, some of this is not your 
first rodeo. For many of you, welcome back. And it is nice to 
meet some of you who I am just meeting today for the first 
time.
    Obviously the Government Accountability Office and others 
have consistently reported that data on the Federal spending is 
often incomplete, out of date, and inaccurate. This lack of 
accurate, reliable, consistent data makes it difficult, if not 
impossible, to properly evaluate whether taxpayer dollars are 
being wasted or wisely spent. And in this era of very tight 
fiscal concern, when you are trying to make decisions on where 
money is to be appropriated and where it should go, having good 
record-keeping and good tools to make informed decisions is 
critical.
    In just 5 years, GAO had identified wasteful duplication, 
overlap, fragmentation in 106 areas across the government, and 
an additional 72 areas of potential cost savings. You know, 
each year, Mr. Dodaro, we get your report, and it is 
illuminating. The only troubling thing is is that it seems like 
a lot of times, those things continue to stay on there. So 
hopefully, today's hearing will help us better implement a law 
that was initiated right here in this committee, one that I 
think will provide great tools for OMB and others as we look 
forward to that.
    You know, to give you an example, the EPA has 37 different 
laboratories managed by 15 different EPA officials, spread 
across 30 cities and 170 buildings without any coordination. 
Now, if that is not a recipe for disaster, I can not imagine 
what it would be, because just the duplicative nature of that, 
you know, is one thing being done here, I can just imagine what 
we have got.
    So it is with this duplication and the type of efficiencies 
that we want to make sure that we have, that the GAO could not 
even tell the taxpayers where dollars were being wasted at the 
EPA, because they did not maintain sufficient documentation on 
the operating data.
    Well, it is not just there. As many of you know, the Social 
Security Administration is required to offset benefits for 
certain individuals who receive similar benefits under another 
program, like Workers' Compensation. In 2012, GAO found that 
the Social Security Administration was not effectively 
administering the Workers' Compensation offset due to a lack of 
information about which recipients were receiving what 
benefits. And in an 8-year period, it was estimated that some 
$43 million in disability insurance overpayments were made. 
Those are just a few examples that we have.
    The DATA Act requires that Federal agencies need to 
maintain and report Federal spending data in a format that will 
allow for government watchdogs to weed out the waste and the 
fraud. And if implemented correctly, we will finally know how 
much our government is spending and where the money is being 
spent.
    I think today's hearing, we are looking forward to you 
illuminating those particular issues as we see, even with that 
law that has been in effect a little over a year now, is not 
really taking hold to give us the tools to make informed 
decisions. So we look forward to you sharing what we can do 
better to help you implement it, and ultimately help the 
American people.
    With that, I will yield back, Mr. Chairman.
    Mr. Hurd. Thank you, Chairman Meadows.
    And now it is my pleasure to do something I get to do 
almost every week, and that is, recognize the distinguished 
gentlewoman from the great State of Illinois, my friend, Robin 
Kelly, the ranking member of the Subcommittee on Information 
Technology, for her opening statement.
    Ms. Kelly. Thank you, Mr. Chairman. I would like to thank 
you for holding this hearing to examine the progress of the 
implementation of the DATA Act. I would also like to thank each 
of our witnesses for coming to address us today.
    Effective implementation of the DATA Act is crucial in 
order to improve the transparency of Federal spending. The Act 
requires that agencies report spending data in a consistent 
way, which, in turn, will help them operate more efficiently. 
The transparency that the DATA Act is designed to provide will 
help hold agencies accountable for their spending decisions.
    Comptroller General Gene Dodaro testified before this 
committee last year that the DATA Act was one of the single 
biggest things Congress could do to address wasteful spending. 
OMB and Treasury have taken major steps forward in carrying out 
the requirements of this Act. I applaud the way the 
administration has embraced the Act and worked so diligently 
over the last year to set the executive branch on the right 
path.
    In the last hearing concerning this topic, David Mader, the 
Controller for the Office of Management and Budget, stated, 
``We have charted a very aggressive path towards implementation 
building off past experiences and successes to transform the 
way the government does business.'' Mr. Mader is here with us 
again today, along with Mr. Lebryk from the Treasury 
Department. I look forward to hearing from them how well OMB 
and Treasury are progressing. OMB and Treasury got off to a 
great start by meeting the first big deadline, which required 
them to establish government-wide data standards by May 9, 
2015.
    I want to highlight the efforts the administration has 
taken to get feedback from stakeholders and provide 
opportunities for public comments over the past year. 
Stakeholder input is crucial to ensuring the success of the 
DATA Act. This Act is an initiative that encourages innovation. 
Including stakeholders in the discussion will help foster that 
innovation, both inside and outside the government.
    I also want to commend the way the GAO and the Office of 
Inspector General for Treasury has engaged early in the 
process. I know both GAO and the OIG already have work underway 
to access implementation efforts.
    The work of Congress did not end with the passage of the 
DATA Act. It is our duty to stay engaged and see that the 
execution of the Act happens seamlessly. We must keep our 
finger on the pulse of the agencies to assure them that they 
have our support and guidance as well as the resources they 
need to ensure the law is carried out as it was intended.
    Again, I welcome the witnesses and I thank the chairman for 
holding this bipartisan hearing, and I look forward to hearing 
from you.
    Mr. Hurd. Thank you, Ranking Member Kelly.
    Now it is an honor to welcome the Honorable Gene Dodaro, 
Comptroller General of the United States at the U.S. Government 
Accountability Office. He is no stranger to this committee. It 
is great to have you here. And he is going to be accompanied by 
Christopher Mihm, the managing director of strategic issues at 
the GAO, whose expertise may be needed during this hearing.
    The next person I would like to introduce is the Honorable 
David Mader, the Controller of the Office of Federal Financial 
Management at OMB.
    And Mr. David Lebryk, the Fiscal Assistant Secretary at the 
U.S. Department of Treasury. Thank you for being here today, 
and it was great meeting you earlier this morning.
    And Mr. Robert Taylor is our fourth panelist, the Deputy 
Assistant Inspector General for Audit at the U.S. Department of 
Treasury. Thank you for being here today.
    And pursuant to committee rules, all witnesses will be 
sworn in before they testify. We will also swear in Mr. Mihm.
    Please rise and raise your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Thank you. Please be seated. And let the record reflect 
that the witnesses answered in the affirmative.
    In order to allow time for discussion, please limit your 
testimony to 5 minutes. Your entire written record and your 
written statement will be made part of the record. And I would 
like to recognize Mr. Dodaro for his opening remarks for 5 
minutes. Welcome, sir.

                       WITNESS STATEMENTS

                STATEMENT OF HON. GENE L. DODARO

    Mr. Dodaro. Thank you very much. Good afternoon, Chairman 
Hurd and Meadows, Ranking Member Kelly. It is very nice to see 
all of you today. I want to thank you for holding this hearing 
and for asking for GAO to participate.
    The DATA Act, if effectively implemented, can really 
enhance the transparency and accountability of government, and 
lead to more efficient and effective government operations.
    Treasury and OMB have gotten off to a good start. I think 
they have taken some significant steps. They have issued 27 of 
an eventual 57 data elements that plan to be implemented by the 
end of this summer. So that is very important.
    Now, we have given them a lot of technical suggestions that 
could lead to some revisions. The intent of our effort to 
engage early is to make sure that we get a good solid 
foundation in the beginning to make sure that the standards are 
clear, they can be consistently applied, and will produce the 
desired result over time. So we plan to continue to provide 
them ongoing feedback to achieve those objectives, but much 
more needs to be done in order to effectively implement the 
Act.
    Today, I'd like to focus my opening remarks on three 
recommendations that we have made in our written testimony. One 
is we think OMB and Treasury need to accelerate the efforts to 
merge the DATA Act standards requirements with the requirement 
in the Government Performance Results Act to ensure that the 
government has a complete inventory of Federal programs. The 
Federal Government still does not have this. We need an 
inventory of Federal programs so that Congress can collectively 
look at the aggregate investment the Federal Government's 
making in Federal programs and activities. And also, if we are 
going to efficiently and effectively be able to reduce 
fragmentation, overlap, and duplication in the Federal 
Government. It is critical that this inventory be developed so 
that Federal spending can be linked to Federal programs and 
activities.
    Secondly, we encourage Treasury and OMB to establish a 
permanent governance structure for the life cycle of the 
standards to ensure that they're enforced, that their 
integrity's maintained over time, and that they use leading 
practices in data governance that have been used by standard-
setting bodies throughout the world. And we have made that 
recommendation.
    I think it is very important. Treasury and OMB have a good, 
initial governance structure, but they have yet to establish 
how it is going to be permanently done over time. Now, I think 
it is very important to do it now, because the implementation 
of the DATA Act will span the next two administrations, and I 
am concerned that there will be lost momentum and lack of 
direction to the agencies without that permanent governance 
structure being in place now that can transcend the transition 
to the new administration.
    Thirdly, Treasury and OMB have outreached to stakeholders, 
but we think there is more that could be done in this area that 
would effectively replicate a lot of good practices that were 
established during the Recovery Act. There needs to be a two-
way dialogue between Treasury, OMB and the agencies and various 
stakeholders, particularly at the State and local level, non-
for-profit level, the contracting community, and we believe 
that Treasury and OMB need to provide feedback to them based 
upon their suggestions. That hasn't happened to date. We think 
that that dialogue is important. The initial standards were 
more focused on Federal Government budget data and 
requirements, so that there is not yet a lot of standards that 
are going to affect the recipient community. Those will be 
coming out, or have been coming out now, so it is very 
important to get this dialogue up and running effectively over 
time.
    Lastly, I would say, there needs to be continued attention 
by this committee and the administration to ensure that these 
standards are effectively implemented. We can come up, and OMB 
and Treasury and the government come up with the best standards 
in the world, but unless they're implemented effectively, you 
are not going to have accurate data.
    Chairman Meadows mentioned our work in the past about the 
inaccurate, incomplete data on USASpending.gov. It 
significantly has--we found it to be incomplete and inaccurate. 
And unless attention is made to effectively implementing the 
standards, I am afraid that we could have the same very poor 
result after a lot of good intentions and good efforts to get 
the DATA Act implemented.
    So a long way to go. GAO will be there every step of the 
way. And I thank you for the opportunity. I will be happy to 
answer questions at the appropriate time.
    [Prepared statement of Mr. Dodaro follows:]
   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
  
    Mr. Hurd. Thank you very much, sir.
    Mr. Mader, you have 5 minutes for your opening remarks.


                 STATEMENT OF HON. DAVID MADER

    Mr. Mader. Thank you, Chairman Hurd, Ranking Member Kelly, 
and Chairman Meadows for the opportunity to be here today to 
talk about the progress that OMB and Treasury have been making 
since our last appearance in December with the implementation 
of the DATA Act. As you stated, Mr. Chairman, the Act presents 
the unique opportunity to improve the way the government works 
by providing all Americans with the ability to see how Federal 
dollars are spent. By delivering access to reliable financial 
information through USASpending, the DATA Act will provide both 
individuals and organizations in and outside of government to 
understand how the Nation's tax dollars are being spent, and 
provide opportunities to create innovative solutions for 
improving the efficiency and effectiveness and oversight of how 
the government does its business.
    Equally important, increasing transparency will enhance 
inter-government and intra-governmental communication, allowing 
for more informed, effective, and efficient decision-making. 
Access to standardized data will improve the efforts of 
Federal, State, local, and tribal governments as well as all 
other stakeholders.
    We believe the DATA Act's statutory requirements are driven 
by three clear goals: First, continuing to improve how the 
Federal Government accounts for and displays total spending; 
second, institutionalize a culture of data-driven decision-
making; and third, reexamine how we can lessen the burden on 
Federal contract and grant recipients and their reporting 
burden.
    Since last December, we have had an opportunity to make 
significant progress. Since our December meeting here, there 
are significant actions that have been accomplished: first, we 
continue to work to improve USASpending's government interface; 
two, we established government-wide USASpending data 
definitions and data exchange standards for all Federal 
spending; third, we developed an agency playbook to assist the 
agencies in the DATA Act implementation; fourth, we issued 
guidance to agencies to systemically improve data quality; and 
fifth, we launched a pilot to simplify Federal award reporting.
    Moving forward from this day, we have significant work 
ahead of us: One, we must complete the remaining work for 
additional data standards, including additional data 
definitions; second, we need to work with agencies, 
specifically, for them to develop implementation plans; third, 
we need to continue to collaborate with Federal and non-Federal 
stakeholders to develop the display of DATA Act information; 
and lastly, we need to continue to enhance the Section 5 pilot.
    As we close out fiscal year 2015 and move into fiscal year 
2016, the success of our ongoing efforts will be contingent on 
the appropriation of sufficient resources for Federal agencies. 
Thus far, progress made in the implementation of the DATA Act 
has been accomplished using existing resources. In fiscal year 
2016, the President's budget included $84 million for DATA Act 
implementation, which would put us on a strong path towards May 
of 2017.
    As you recall, the Congressional Budget Office estimated 
that the DATA Act would cost somewhere around $300 million for 
the period 2014 through 2018. Without dedicated resources, 
agencies will have a substantial difficulty in reaching both 
the statutory requirements and the overall intent of the DATA 
Act. With Congress's continued support, appropriate funding, 
and continued robust collaboration, we will be on a path for 
successful DATA Act implementation.
    We look forward to the opportunity to continue to work with 
GAO, with the IG community, and this committee to ensure that 
we meet the objectives of the DATA Act.
    Thank you for the opportunity to testify, and I look 
forward to answering your questions.
    Mr. Hurd. Thank you for your remarks, sir.
    Mr. Lebryk, 5 minutes is yours.


                  STATEMENT OF DAVID A. LEBRYK

    Mr. Lebryk. Thank you. Chairman Hurd, Ranking Member Kelly 
and Chairman Meadows, thank you very much for having us here 
today to talk about----
    Mr. Hurd. Mr. Lebryk, can you----
    Mr. Lebryk. Yep. There you go.
    Thank you for having us here today to talk about the 
implementation of the DATA Act. In my over 25 years of 
experience in the Federal Government, there are few initiatives 
I've seen in the financial management area that can make as 
much of a difference as this Act can across government.
    When Mr. Mader and I have gone out and spoken to the 
Federal community, I think what we have been struck by is how 
receptive the Federal community has been to getting better 
access to data. And the underlying premise of our 
implementation has been better data, better decisions, better 
government. And I think our ability to actually improve the 
access to data, to unlock the data that exists in disparate and 
siloed systems across government can make a major difference in 
terms of making government operate better, both internally as 
well as externally, with respect to citizens understanding how 
government is spending their money, as well as seeing ways that 
we can improve program performance and enhancements. So I think 
that it is really an ample opportunity here, a really good 
opportunity for us to make a significant difference long term 
for how government operates.
    When I testified last on this, we talked about the 
implementation approach we had. And I think, you know, when you 
have a new piece of legislation and it is as comprehensive and 
as transformational as this, one of the first things you have 
to do is articulate what your business approach is and what the 
business case is of why you want to do this.
    So Dave and I have spent a lot of time within the Federal 
community talking about the importance of the Act and 
explaining our approach. And significantly, we have talked 
about a data-centric approach, which is more about the ability 
to access the data rather than the systems approach. In the 
past, government oftentimes builds large-scale systems in 
attempts to access data or change systems to access data. Our 
approach has been more data-centric. It is about finding the 
data that currently exists within existing systems, mapping to 
that data, and then being able to present it and make it 
accessible to both government and externally.
    So this has been something that is a little bit new. And as 
we have gone out and spoken about that, we have had to sort 
of--once we get people to kind of understand a little bit 
better, the next question is, what do you want us to do? So 
part of the implementation has been for us to put together a 
playbook. And, you know, one of the probably smarter things I 
think we have done was to develop a PMO, a Program Management 
Office, a small group of people who are very much getting up 
every morning and going to sleep every night thinking about how 
can we advance the implementation of the Act? And one of the 
things that they have done, and the office was established 
within Treasury, was working closely with OMB, was put together 
this 8-step plan, and saying to the agencies, if you are going 
to implement the Act, what kinds of things do you need to do? 
And we're at the very beginning stages of that.
    In May, when we announced the standards, we also announced 
the playbook. And one of the first things that people needed to 
do is put together a small team to understand where the data 
resides within their existing systems.
    And that process, which is underway today, is going well. 
We have held over 20--we have met with all 24 of the CFO Act 
agencies, we have met with the IG community, the GAO, and 
spoken about the implementation and how you need to proceed as 
an organization to actually get access and start mapping the 
data.
    So that is gone very well. We're at the very beginning 
stages of that, and I think the results of that will give us 
some indication of how difficult this will be across government 
over the coming months, what kind of resources are going to be 
necessary, how easy it is going to be to actually map the data 
and actually extract it from the different systems.
    One other philosophical point of view we had in 
implementation was that we would try pilots, that we would try 
an agile approach to development, which is more about sprints 
and failing fast if you are going to fail, and understanding, 
you know, what's working and what's not working. So we have had 
a number of pilots that we have been testing as it relates to 
the implementation. Those have been very effective at having us 
learn lessons and moving forward. And we'll be doing more of 
that.
    I should also mention that I know we have been getting a 
lot of very good constructive feedback. And the GAO and our IG, 
I think it is been very good that they have been involved in 
this in the beginning to give us quick feedback and allowing us 
to make corrective course corrections as necessary with respect 
to how we're doing the implementation.
    We have done a lot of outreach to the community. We have 
done something new with respect to getting input, using 
something called the Github, which is allowing people in real-
time to actually look at proposals that we have out there and 
getting us back their comments and their feedback. This is, I 
think, a useful tool in the sense that it does allow a 
community of experts to really--to be a community and talk 
about how you actually implement data and use the data, and we 
have been--we have found that a very effective way to move the 
project forward. But certainly, there are challenges, and I 
don't want to suggest this is easy, because it is not. And 
moving the Federal Government in a direction, it is going to 
take resources, as Dave mentioned, but we're very much 
committed to doing what we can to move this effort forward.
    I look forward to taking questions. Thank you.
    [Prepared statement of Mr. Lebryk follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Mr. Hurd. Thank you, sir.
    Mr. Taylor.


                 STATEMENT OF ROBERT A. TAYLOR

    Mr. Taylor. Yes. Chairman Hurd, Chairman Meadows, Ranking 
Member Kelly, and members of the subcommittee, thank you for 
the opportunity to appear before you this afternoon for the 
hearing on DATA Act implementation. I am here to discuss our 
office's recent oversight report on Treasury's effort under 
this Act.
    The DATA Act places initial responsibility for 
implementation squarely on Treasury and OMB, requiring that 
they issue guidance on government-wide financial data standards 
for Federal spending, ensure financial and payment information 
data is accurately posted and displayed on USASpending by May 
2017, and then ensuring the data standards established are 
applied to the data made available on this Web site by May 
2018.
    As the DATA Act moved towards passage, Treasury Inspector 
General Eric Thorson, recognized that our office would hold an 
important oversight role. He asked that we engage Treasury 
early in this process. In response, we started what will be a 
series of audits over the next several years focused on 
Treasury's DATA Act efforts.
    We issued our first report this past May. That report 
covered actions taken by Treasury as of October 31, 2014. We 
found that Treasury and OMB made progress in setting up an 
implementation approach. For example, Treasury and OMB 
established an executive steering committee with Mr. Mader and 
Mr. Lebryk. This committee is supported by an interagency 
advisory committee comprised of representatives from various 
government-wide communities to provide leadership in obtaining 
stakeholder buy-in.
    And as Mr. Lebryk mentioned, Treasury and OMB also 
developed a data-centric vision for implementation. This 
approach focuses on managing existing data to avoid massive 
system changes across government. To execute the data-centric 
approach, Treasury and OMB created a structured divide into 
four general areas: Lead, implement, support, and consult, with 
specific workstreams under each.
    While Treasury's progress is notable, we did identify 
concerns with project management that we believe could hinder 
implementation. Due to the complexities involved, Treasury is 
using a combination of agile and traditional project management 
practices. Very briefly, agile is characterized by quick, 
small-scale pallets to test innovative concepts and strategies 
to get to an end result. Traditional project management, on the 
other hand, is a more structured methodology that is 
characterized by a detailed step-by-step approach done in 
chronological order to achieve an end product that is clearly 
defined upfront.
    Conceptually, the combination of these two approaches makes 
sense. However, we know that Treasury's project planning 
documents did not describe the different practices being used 
for each identified work stream, it did not clearly show how 
the tasks in the various workstreams tied together to produce 
desired results. Additionally, the planning documents did not 
fully reflect or recognize artifacts, tools, and metrics for 
either an agile or traditional project management methodology.
    There were also inconsistencies between the status of 
activities reflected in certain tracking documents, and some 
documents that we expected to see were either not prepared or 
not maintained. Furthermore, at the time, Treasury did not have 
a formal process to track stakeholder feedback. We also know 
that Treasury had some trouble filling the position of program 
manager, which may have contributed to some of the concerns we 
found. However, Treasury did fill this critical role in 
November 2014.
    We are pleased to report that in his response to our audit, 
Mr. Lebryk agreed with our recommendations for strengthening 
project management. I also want to emphasize that the above 
concerns were as of a point in time, October 31 of last year, 
and a lot has taken place since that time.
    In closing, I'd like to say that our office views the DATA 
Act as a critical step in providing government managers, the 
Congress, citizens, and the inspectors general, and GAO, for 
that matter, with a better tool to evaluate how government is 
using the resources entrusted to it. We believe that a key 
component is the strong oversight provision incorporated in the 
Act; specifically, that the Congress and inspectors general and 
GAO conduct a series of rigorous reviews to assess the quality 
of data submitted under the Act. These reviews will hopefully 
give users comfort and reliability of the spending information 
presented, something that is currently lacking with USASpending 
data.
    This concludes my statement. I will be happy to answer any 
questions you may have.
    [Prepared statement of Mr. Taylor follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
   
    Mr. Hurd. Thank you, Mr. Taylor.
    Now I'd like to recognize Chairman Meadows for 5 minutes 
for questioning.
    Mr. Meadows. Thank you, Mr. Chairman. Thank each of you for 
your testimony. I am going to start out very briefly, and maybe 
emphasize the reason why, Mr. Mader, Mr. Lebryk, why it is so 
critical that we get this information.
    If you go back to the Wastebook of 2014, it highlights a 
few things in there. And so I looked at what I found egregious, 
and then I went and looked to try to find the information on 
the site for how we would make a decision on whether we should 
give that grant or not. And so this--I won't mention the 
institution, but the institution name is there, and it 
basically is two pages of just where they're from and the name 
of the institution, and then the project description is 
Research in Strong Interaction Theory. Now, I mean, that could 
mean a lot of things to a lot of people, and so--but that was 
the extent of the information that we had from the Federal 
Government.
    Well, come to find out, that was a $331,000 project that 
allowed parents, or individuals, to stab voodoo dolls with pins 
so that they could figure out if you--when you are hungry, if 
you are angrier. Now, most parents who have toddlers know that 
when they're hungry, they get cranky, and so to spend $331,000 
to stick pins in a voodoo doll may be important to someone, but 
when we have so many unbelievable needs out there, to make an 
informed decision, we need more data. And so I want to give 
that example. I've got more, but we won't go into those.
    So, Mr. Dodaro, let me come to you. I understand there are 
some pilot programs that we're trying to implement. What would 
you believe that a good pilot program would look like?
    Mr. Dodaro. Well, the characteristics of a good pilot 
program would be clear objectives of what you would want to 
test, a defined time frame, clear criteria on how you are going 
to evaluate the pilot to know whether it was successful or not, 
and having good data along the way in order to be able to 
monitor the effective implementation of the pilot and evaluate 
the results of the pilot.
    Mr. Meadows. So basically, a matrix of where you are trying 
to get to, some standards on what those expectations are, and 
then the quality of the input to see if it measures up to that 
so you can make an informed decision?
    Mr. Dodaro. Right. Right. And so you can compare it to the 
existing system to make sure it is going to improve the 
situation.
    Mr. Meadows. All right. So as we look to do this, and the 
pilot programs, Mr. Mader, I know you've been working, I guess, 
with HHS, and what that pilot program, as it is described to 
me, and it may be wrong, it seems that it misses the target 
that Mr. Dodaro has in that, you know, it is a blog and, you 
know, we're putting up a few things and we're getting a little 
bit more information here and there, but it really is not 
clearly defined. So when it comes from a pilot standpoint, how 
can, one, do you see any deficiencies, and I guess the other 
is, is how can we go to improve that?
    Mr. Mader. Mr. Chairman, first of all, I agree with Mr. 
Dodaro's description of what the critical elements are for a 
good pilot.
    And I think with regard, specifically, to the Section 5 
pilot, which is basically--if we go back to the underlying 
statute, it basically talked about a pilot and it talks about a 
report at the end of the period. And when we looked at the 
statute and we looked at what we know the outcome needed to 
be--and that really is to reduce the burden on individuals that 
interact with the government with regard to contracts, or with 
financial assistance and loans. And I think if we had taken a 
traditional approach of doing a study, what we would have wound 
up at the end of 2 years is a 3-inch binder with a series of 
recommendations. And I don't think that that would be 
satisfying to us, nor would it be satisfying to the committee, 
or anybody, for that matter.
    So in thinking about how to construct a pilot with the 
intent that everybody wants, we said let's sort of think, and I 
will use something that Dave mentioned, is let's take a more 
iterative approach. Let's start working with the recipients, 
the stakeholders, and asking them, if you are applying for a 
grant, what is the burden? How difficult is it? What are things 
that we could improve? If you are applying--if you are going to 
bid on a Federal contract, how could we make that process 
easier? So the first part of the strategy is actually to ask 
the recipients, the stakeholders, what would you fix? What's 
broken? And that is the step that we have embarked on now.
    As we gather that input from the stakeholders, then we're 
going to start looking at the business processes, the business 
practices, whether it is in financial assistance or in 
contracting, saying, can we change this? Can we change the 
practice? Can we do it now instead of 2 years from now?
    So I do believe that the way we are constructing this pilot 
adheres to best practices, because we're just getting started. 
We only began a couple months ago. But I also think that this 
iterative approach is actually going to get us real results 
faster.
    Mr. Meadows. Well, I hope you are right. The only problem 
that I have is, is if Mr. Dodaro's definition of what success 
is and you go in to the stakeholders who receive the grants and 
say, How do we make this better? Really it doesn't meet the 
requirements of what a pilot program is supposed to be, you 
know, with regards to the statute, you know, because it is got 
some pretty--you know, A, B and C there in terms of what it 
needs to do, and it sounds like you haven't really addressed 
those. Have you addressed those in your pilot?
    Mr. Mader. Mr. Chairman. We are going to--we're going to--
--
    Mr. Meadows. Have you already addressed them?
    Mr. Mader. No. We're in the process of addressing, but we 
will address what's required in the statute, but I think we're 
going to do it in a way that actually will generate real 
results sooner rather than later.
    Mr. Meadows. I will yield back since I am--you were very 
gracious with your time, Mr. Chairman. I will have a follow-up 
series of questions.
    Mr. Hurd. Ms. Kelly, you are recognized for 5 minutes.
    Ms. Kelly. Thank you, Mr. Chair.
    Mr. Dodaro, the Recovery Accountability and Transparency 
Board in consultation with inspector generals established the 
Recovery Operation Center, ROC, in 2009. The ROC has been 
successful in using enforcement and analytics in software tools 
to identify patterns and identify areas at risk for fraud. For 
example, the inspector general for the Department of Homeland 
Security used ROC to investigate companies that receive 
contracts for debris removal from Hurricane Sandy. The ROC 
identified contractors who had tax liens and filed for 
bankruptcy, as well as organizations that committed fraud 
previously on similar contracts.
    Do you agree that ROC has been an effective tool in 
identifying fraud?
    Mr. Dodaro. Yes.
    Ms. Kelly. You said that pretty emphatically.
    Mr. Dodaro. Well, I will tell you, we were involved in the 
Recovery Act implementation as well. Our job was to look at the 
use of the money by State and local governments, but I went 
over and I saw demonstrations of the ROC's capabilities. I 
think the Recovery Board and the IGs did an excellent job. I 
think there was great concern about the amount of potential 
fraud that could occur pushing out $800 billion in a short 
period of time. And I think that their effective implementation 
of these sets of tools in the Recovery Operation Center led to 
a relatively minimal amount of identifiable fraud in that 
program, a lot less than people anticipated.
    Ms. Kelly. Thanks.
    Mr. Taylor, has the ROC also been a valuable service to the 
inspector general community?
    Mr. Taylor. To some extent. I am going to defer to the GAO 
on that. I can speak for myself. I have not used it, but they 
have been doing a body of work looking at the requirements 
under the DATA Act. There is a requirement that Treasury 
consider setting up a data analytic center. When GAO informed 
us that they were going to do a study of that, we deferred our 
work.
    Ms. Kelly. Okay. So under the DATA Act, Treasury can 
transfer the assets of the ROC to establish a data analysis 
center, or to simply expand an existing service.
    So Mr. Dodaro, your written testimony states that the 
Treasury Department does not plan on transferring any of the 
ROC's assets. Is that correct?
    Mr. Dodaro. That is correct. I mean, they are engaged in 
transferring information and knowledge from the ROC operations. 
They have hired one person, who had an integral role in the 
ROC's area, but for various reasons that we cite in our 
testimony, that they told us about the age of the hardware, the 
proprietary nature of some of the contracts, and et cetera, no, 
they do not plan at this time, what they have told us, to 
transfer those assets, intact, over to their operations.
    Ms. Kelly. And, Mr. Lebryk, is that accurate?
    Mr. Lebryk. Yes, it is.
    Ms. Kelly. Okay. And, Mr. Dodaro, your testimony identifies 
four categories of assets that could be transferred from the 
ROC to Treasury. One of those is personnel.
    Mr. Lebryk, has Treasury hired any employees from the ROC?
    Mr. Lebryk. Yes. We have hired several employees from the 
ROC, as well as have leveraged significantly kind of what they 
have learned in the process of operating the ROC.
    Ms. Kelly. Another category of assets Treasury could obtain 
from the ROC is data sets. And your written testimony includes 
a chart that shows the data sources available to Treasury Do 
Not Pay Program compared to the data sources available to the 
ROC.
    Mr. Lebryk, do you agree with GAO's assessment that there 
are data sets available to the ROC that are not available to 
Treasury Do Not Pay Program?
    Mr. Lebryk. That would be correct in the sense that the ROC 
had very specific authorities that were not transferred in the 
Act. The Act actually allows Treasury to take assets, but to 
not transfer the authorities of the ROC.
    Ms. Kelly. And has Treasury taken any steps to use its 
authority under the DATA Act to obtain access to those data 
sets that the ROC has but Treasury does not have?
    Mr. Lebryk. So it may be useful to sort of talk about how 
we have approached the issue of improper payments and fraud. 
Treasury is very much committed to reducing improper payments 
across government, and we operate something called the Do Not 
Pay Center. The Do Not Pay Center is more comprehensive than 
what the ROC is doing, because what Do Not Pay is doing is over 
500 million government payments have already been run through 
the Do Not Pay Center; that is, making sure that you are doing 
real-time matching against existing government payments, 
something the ROC was not able to do.
    The second piece, which is--that is important is in Do Not 
Pay, we're looking at pre-award, that is, when someone's making 
a determination about whether they should give an award to 
someone, they have the ability to come in to Do Not Pay and do 
an assessment about whether they should give that person an 
award. They then have the ability prior to actually issuing 
award to run it against the Do Not Pay databases. And finally, 
there is real--thirdly, there is real-time ability that once 
payments are being made, to match them against the Do Not Pay 
database. And then finally, fourth, is the ability after a 
payment has been made, to do analysis to figure out whether the 
payment is appropriate.
    So we have used the Do Not Pay Center as well as our 
existing capabilities and payments to use that information to 
do analytics and to stop improper payments, which is much more 
expansive than what the ROC can do today.
    Our IG recently gave us an award for the ability to 
actually help identify and prosecute over 130 cases of fraud 
that was based on our payment files. So what we're doing right 
now is we're going by, which is something the ROC did not have 
the capability of doing, is analyzing all the government 
payments that are being made. So if a beneficiary has received 
a payment for the last 10 years to a bank account, and all of a 
sudden, it appears as though it is not going to a prepaid debit 
card, that may be an indication that there is fraud.
    In one of the cases that was prosecuted, there were over 10 
government payments being made to a single address, and we did 
geo-space coding and sort of said where is that house that 
those payments are going to? And it turned out it was a 
warehouse. And you, therefore, can sort of say, well, that is 
not--those payments shouldn't have been being made that way and 
they're problematic.
    So we have been working with the IG community to--in CIGIE 
to sit down and talk about how can they get better access to Do 
Not Pay, how can we work with them more closely to provide 
those services that currently are being provided by the ROC in 
addition to further services that we can offer to them to 
reduce improper payments.
    Ms. Kelly. Well, congrats on the award, and my time is up. 
Thank you.
    Mr. Hurd. Mr. Walberg from Michigan is recognized for 5 
minutes.
    Mr. Walberg. Thank you, Mr. Chairman. Just last week, I 
believe, the Oversight and Government Reform Committee approved 
the Taxpayer Right to Know Act, which, as you know, establishes 
a definition for a government program. It seems it is about 
time that we do that since we have plenty of programs.
    It requires OMB to publish an inventory of all programs as 
well as its activities online, and so Mr. Dodaro, can you 
describe the effect of not having an established definition of 
``Federal program'' on both transparency and the ability to 
conduct oversight?
    Mr. Dodaro. Yes, I'd be happy to. I mean, it is very 
problematic not having this definition. We were charged in law 
by the Congress 5 years ago to produce an annual report on 
overlap, duplication, fragmentation in the Federal Government. 
It took us great pains and time and effort to come up with an 
inventory.
    For example, we identified, after a lot of work and a lot 
of digging, 82 programs that provided assistance for teacher 
quality. Not even the Department of Education had a 
comprehensive list of all these programs. There are 160 
programs in the housing area that we eventually unearthed, but 
even then, we couldn't tell how much spending was associated 
with these programs.
    So this is a very--it is an impediment from several means, 
Congressman. Number one, you and other policy Members of 
Congress, in making decisions, can not tell what the aggregate 
Federal investment is in a related set of programs. This is 
problematic if you are trying to decide priorities and make 
decisions, also knowing whether you are getting a return on the 
investment.
    The other problem we found was there wasn't a lot of data 
on evaluating the success and the outcomes of Federal programs, 
so you did not have a lot of good inventory of the programs, 
you did not have a good listing of the spending associated with 
the programs, and what you were getting in outcomes for the 
programs. This is not a way to run a government. You need to 
have that information.
    Mr. Walberg. So implementing the DATA Act would be very 
difficult for OMB as well without this definition of a program.
    Mr. Dodaro. Yes, that is exactly right. That is one of my 
recommendations in our testimony today is they accelerate the 
DATA Act with the--the Government Performance and Results 
Modernization Act passed in 2010 required OMB to come up with 
an inventory of Federal programs. They have not yet done that. 
They have allotted a lot of flexibility to the agencies, and 
the agencies implemented it in different ways, and so you can 
not compare across departments and agencies.
    So they agreed with our recommendation then and said they 
were going to defer implementation until the DATA Act was in 
place, which I thought was a reasonable position, but we need 
to get it done, and it is not yet done.
    Mr. Walberg. I guess then I'd slide over here, Mr. Mader, 
and ask you why has OMB then not created a Federal program and 
inventory to date?
    Mr. Mader. Mr. Congressman, my understanding was that at 
the time that OMB attempted to create the inventory, they took 
an approach that basically went out to, and I will say, let's 
say the 24 major departments across government, and asked them 
to identify within their particular organization what 
programs--you know, what rose to the program level.
    And then when they brought all of that data back and looked 
at the 24, what they couldn't do--and I think this goes to an 
earlier comment about duplication and overlap is you couldn't 
actually see across the 24 where there were common expenditures 
against the particular activity.
    For example, there are programs that exist and are executed 
in different departments. They weren't able to link them 
because everybody defined what was important to them as a 
program, so----
    Mr. Walberg. When it was action and activity; is that what 
you are saying?
    Mr. Mader. Well, it was--they identified a program, but 
they did not identify a program so that it was consistent with 
another program in a different department.
    Mr. Walberg. Okay.
    Mr. Mader. So there was inconsistency, so you couldn't 
crosswalk that.
    What we're doing now is we have, right now, 3,800-plus 
program activities, and in the DATA Act, what we're doing is 
actually refining them and ensuring that everybody understands 
the definition of those program activities. If you think about 
program activities and you think about a pyramid, to us, the 
program sits on top of that. Where you would have multiple 
program activities, that would aggregate up to a broader 
definition of program. And as we----
    Mr. Walberg. But you are defining those programs now?
    Mr. Mader. We have not started yet, Congressman, because 
our goal is, first, to perfect, and we're starting to perfect 
the program activities, get that right across the government, 
and then start looking at, so when we look at a breadth of 
these 3,000-plus program activities, how do you aggregate that 
up to fewer? Because there will be fewer than 3,000 if you 
bring the definition up.
    Mr. Walberg. Well, my time is expired, but if I could ask 
just an expected date of getting to that point where you have 
that list of programs, is there any timeline you have on it 
now, based upon what you are doing already with the activities?
    Mr. Mader. We don't have a timeline yet, but what we have 
said is that we're going to start looking at, you know, can we 
start that activity some time in the new fiscal year so that 
werun it concurrent? But as I've told Senator Lankford 
recently, the same people that are implementing the DATA Act 
will have to do this, and it is a matter of prioritization, and 
also the fact that program activity is foundational to the 
program. So while there--while we may be able to launch the 
effort, our sense is that won't be finished until after May of 
2017.
    Mr. Walberg. Whoa. Mr. Chairman, I guess I would say, with 
the Taxpayer Right to Know proposal, with the DATA Act in place 
now, I would encourage you to bump that up, an aggressive work 
to get those programs defined. That is the only way we gain 
control, as I understand it, gain control on what the size, 
scope, cost, and responsibility of government is. I yield back.
    Mr. Hurd. Thank you. I recognize myself for 5 minutes.
    I've been in Congress for 7 months, I think that is it, and 
my staff makes fun of me because I say the word ``outrageous'' 
a lot, because as I learn more about how our government 
operates, it is pretty outrageous, and something as simple as 
understanding how the Federal Government spends money, I would 
think we'd be able to answer that question, and we can not.
    And I recognize the four of you all are involved in trying 
to get us to a point where we can answer that question, and my 
understanding, and Mr. Lebryk, I think the philosophy that you 
all are using to try to solve this problem is a good one, and 
we recognize that whether it is fed 57 pieces of data that we 
want track, and that every agency may have one of those 57 
pieces in a different database that doesn't talk to each other. 
Now, for me, it doesn't take 2 years to map that, right?
    And so my first question is, what is the deadline for the 
agencies to just identify those 57 pieces of information, 
whether they have it or not or how they're going to get? When 
is the next--when is there a deadline for them to identify 
that?
    Mr. Lebryk. So what we have done in the--with the guidance 
that we set out on May 8th was we laid out the eight steps we 
want agencies to go through, and as I mentioned, they're in the 
process of doing that right now.
    From that process, they put small teams together, and I 
think this is one of the values of the approach we're taking. 
It doesn't take lots of people to do this. You just need a 
small number of knowledgeable people to sit down and sort of 
look at the systems.
    From that effort, we'll have a much better sense of the 
level--degree of difficulty to actually get to that end state. 
What we have done, and also part of that May 8th announcement 
was that by the end of this summer, agencies--early September, 
agencies are asked to come back what their agency 
implementation plan will be.
    So after they have done their sort of assessment, they're 
going to comeback and they're going to say, this is what the 
degree of difficulty is, these are the resources that are 
necessary in order to do it.
    Mr. Hurd. So what resources do they need in order to look 
through their databases to find out if there is--you know, 
where that 57 pieces of information is? And Mr. Mader, you said 
at the beginning--and I wasn't around when the DATA Act was 
passed. I think it is a good thing, and we're moving in the 
right direction, but $3 million to get 24 Federal agencies to 
map 56 pieces of information to a single database does not 
require 2 years and $300 million.
    This is something that I've spent time doing in the private 
sector, and what are we using the $300 million for?
    Mr. Mader. Mr. Chairman, that was a CBO mark. The 
administration asked for $94 million in '16 and the----
    Mr. Hurd. So what did we use the $94 million for? Or $84 
million?
    Mr. Mader. And the House appropriations have only allocated 
25 million for four agencies. And I think when you think about, 
let's talk----
    Mr. Hurd. there is programmers on staff, right, already in 
some of these agencies, they're collecting the information.
    Mr. Mader. The information, Mr. Chairman, is being 
collected. There is a financial system that collects and 
reports information. There are acquisition systems----
    Mr. Hurd. Yeah.
    Mr. Mader. --that collect and report----
    Mr. Hurd. And somebody is maintaining these systems.
    Mr. Mader. --and will be----
    Mr. Hurd. Somebody is maintaining these systems already. 
Somebody is already putting data in these systems. Why do we 
need more people and more resources to come in, because 
basically, this is going to be--you are going to identify some 
database tables and which attributes was in those tables, and 
you know, run an SQL query and generate that to some place that 
sends it to USASpending.gov, right?
    The solution is quite simple. The real problem, in my 
opinion, is the data that is already been entered, because now 
we're going to have to go back through in 24 agencies and 56 
different pieces of information, folks have put in a lot of 
different data and probably done it the wrong way, so going 
back and cleaning up the data is going to be a challenge.
    And Mr. Dodaro, I am interested in hearing your thoughts on 
how we solve that problem.
    Mr. Dodaro. I think that the agencies need to do the 
identification as you say. I don't think it should require a 
lot of resource to identify whether they have the 57 data 
elements or not. The question is, what--what's the gap between 
what they currently provide and what they need to do in order 
to come into compliance with the standards and ensure the 
quality of the data.
    There is a lot of money being spent now by the Federal 
Government to produce inaccurate, incomplete data, and I think 
that the money, we also ought to look as to whether some of the 
money that is currently being spent for the systems, our 
estimate is there is about, in this current fiscal year, about 
$900 million spent for financial management systems upgrades 
across the Federal Government. Some of that money potentially 
could be reprioritized to come into compliance with these 
standards.
    Mr. Hurd. Amen, brother. Help us identify these things 
because--and know this, and I recognize the endeavor that you 
all are taking, right, and also make sure the agencies that you 
are working with, because you all are going to create the 
framework, you've already hit the timelines that you are 
supposed to hit, you know, good on you all, but the agencies, 
better make sure that they're giving you the information that 
you all need in order to move forward, because this will be 
something that we continue to look at as we go forward in 
executing our oversight role. Because this really is outrageous 
that we don't know how much money is being spent, and we're 
spending money on, you know, poking voodoo dolls when we're 
angry to see if you poke it more in the knots, and this is the 
kind of--this is the kind of stuff that needs to stop. This is 
the kind of stuff that I think the folks that we represent 
expect us to fix, and we're going to need you-all's help to do 
that, but also know we're watching, we're going to continue to 
watch, and if there is folks that are having--if there is--if 
there is agencies that you all are having difficulty with, 
please let me know.
    Any further questions? Ranking member? I would like to 
thank our witnesses for taking the time to appear before us 
today. If there is no further business, without objection, the 
subcommittee is to stand adjourned.
    [Whereupon, at 2:00 p.m., the subcommittees were 
adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
               
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]              
               
 

                                 [all]
</pre></body></html>
